 FEDERAL ELECTION COMMISSION


  OFFICE OF INSPECTOR GENERAL





            FINAL REPORT


Audit of the Federal Election Commission’s

  Fiscal Year 2013 Financial Statements





             December 2013


         ASSIGNMENT No. OIG-13-02

                  FEDERAL ELECTION COMMISSION
                  WASHINGTON, D.C. 20463
                  Office of Inspector General




MEMORANDUM

TO:    	      The Commission

FROM:         I	 nspector General

SUBJECT: 	    Audit of the Federal Election Commission’s Fiscal Year 2013 Financial
              Statements

DATE:	         December 13, 2013


Pursuant to the Chief Financial Officers Act of 1990, commonly referred to as the “CFO
Act,” as amended, this letter transmits the Independent Auditor’s Report issued by Leon
Snead & Company (LSC), P.C. for the fiscal year ending September 30, 2013. The audit
was performed under a contract with, and monitored by, the Office of Inspector General
(OIG), in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable
provisions of Office of Management and Budget (OMB) Bulletin No. 14-02, Audit
Requirements for Federal Financial Statements.

Opinion on the Financial Statements

LSC audited the balance sheet of the Federal Election Commission (FEC) as of
September 30, 2013 and the related statements of net cost, changes in net position,
budgetary resources, and custodial activity (the financial statements) for the year then
ended. The objective of the audit was to express an opinion on the fair presentation of
those financial statements. In connection with the audit, LSC also considered the FEC’s
internal control over financial reporting and tested the FEC’s compliance with certain
provisions of applicable laws and regulations that could have a direct and material effect
on its financial statements. The financial statements of the FEC as of September 30,
2012, were also audited by LSC whose report dated November 14, 2012, expressed an
unqualified opinion on those statements.

In LSC’s opinion, the financial statements present fairly, in all material respects, the
financial position, net cost, changes in net position, budgetary resources, and custodial
activity of the FEC as of, and for the year ending September 30, 2013, in conformity with
accounting principles generally accepted in the United States of America.
Report on Internal Control

In planning and performing the audit of the financial statements of the FEC, LSC
considered the FEC’s internal control over financial reporting (internal control) as a basis
for designing auditing procedures for the purpose of expressing their opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness
of the FEC’s internal control. Accordingly, LSC did not express an opinion on the
effectiveness of the FEC’s internal control.

Because of inherent limitations in internal controls, including the possibility of
management override of controls; misstatements, losses, or noncompliance may
nevertheless occur and not be detected. According to the American Institute of Certified
Public Accountants:
   	 A control deficiency exists when the design or operation of a control does not
       allow management or employees, in the normal course of performing their
       assigned functions, to prevent or detect misstatements on a timely basis.
   	 A significant deficiency is a control deficiency, or combination of control
       deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,
       process, or report financial data reliably in accordance with generally accepted
       accounting principles such that there is a more than remote likelihood that a
       misstatement of the entity’s financial statements that is more than inconsequential
       will not be prevented or detected by the entity’s internal control.
   	 A material weakness is a significant deficiency, or combination of significant
       deficiencies, that results in more than a remote likelihood that a material
       misstatement of the financial statements will not be prevented or detected by the
       entity’s internal control.

LSC’s consideration of internal control was for the limited purpose described in the first
paragraph in this section and would not necessarily identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses. LSC did not
identify any deficiencies in internal control that LSC would consider to be material
weaknesses, as defined above. However, LSC did identify a significant deficiency in
internal controls related to Information Technology security.

Report on Compliance with Laws and Regulations

FEC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FEC’s financial statements
are free of material misstatements, LSC performed tests of compliance with certain
provisions of laws and regulations, noncompliance which could have a direct and
material effect on the determination of financial statement amounts, and certain other
laws and regulations specified in OMB Bulletin No. 14-02, Audit Requirements for
Federal Financial Statements. LSC did not test compliance with all laws and regulations
applicable to FEC.

The results of LSC’s tests of compliance with laws and regulations described in the audit
report disclosed one instance of noncompliance with The Homeland Security Presidential
Directive 23, and National Security Presidential Directive 54, Cyber Security and
                                               2

Monitoring, establishing the Comprehensive National Cyber Security Initiative (the
CNCI), and relating to Initiative No. 1, Manage the Federal Enterprise Network as a
Single Enterprise with a Trusted Internet Connection (TIC). Additional details can be
found on page 25 of the audit report.

Audit Follow-up

The independent auditor’s report contains recommendations to address deficiencies found
by the auditors. Management was provided a draft copy of the audit report for comment
and generally concurred with some of the findings and recommendations. In accordance
with OMB Circular No. A-50, Audit Follow-up, revised, the FEC is to prepare a
corrective action plan that will set forth the specific action planned to implement the
agreed upon recommendations and the schedule for implementation. The Commission
has designated the Chief Financial Officer to be the audit follow-up official for the
financial statement audit.

OIG Evaluation of Leon Snead & Company’s Audit Performance

We reviewed LSC’s report and related documentation and made necessary inquiries of its
representatives. Our review was not intended to enable the OIG to express, and we do
not express an opinion on the FEC’s financial statements; nor do we provide conclusions
about the effectiveness of internal control or conclusions on FEC’s compliance with laws
and regulations. However, the OIG review disclosed no instances where LSC did not
comply, in all material respects, with Government Auditing Standards.

We appreciate the courtesies and cooperation extended to LSC and the OIG staff during
the audit. If you should have any questions concerning this report, please contact my
office on (202) 694-1015.




                                                    Lynne A. McFarland
                                                    Inspector General

Attachment

Cc: 	   Judy Berning, Acting Chief Financial Officer
        Alec Palmer, Staff Director/Chief Information Officer
        Gregory Baker, Deputy General Counsel for Administration
        Lisa Stevenson, Deputy General Counsel for Law




                                            3

      Federal Election Commission


       Audit of Financial Statements


        As of and for the Years Ended

        September 30, 2013 and 2012





                   Submitted By


            Leon Snead & Company, P.C.

Certified Public Accountants & Management Consultants
                                   TABLE OF CONTENTS




                                                                                                                       Page


Independent Auditor’s Report..............................................................................................1


Report on Internal Control ...................................................................................................3


Report on Compliance .......................................................................................................25


Attachment 1, Status of Prior Year Recommendations .....................................................29


Attachment 2, Agency Response to Report .......................................................................32





                                                               i
LEON SNEAD                                                                               Certified Public Accountants
& COMPANY, P.C.                                                                          & Management Consultants
416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
Fax: 301-738-8210
leonsnead.companypc@erols.com


                                     Independent Auditor’s Report

         THE COMMISSION, FEDERAL ELECTION COMMISSION

         INSPECTOR GENERAL, FEDERAL ELECTION COMMISSION


         We have audited the accompanying financial statements of Federal Election Commission
         (FEC), which comprise the balance sheet as of September 30, 2013 and 2012, and the
         related statements of net cost, changes in net position, budgetary resources, and custodial
         activity for the years then ended. The objective of our audit was to express an opinion on
         the fair presentation of those financial statements. In connection with our audit, we also
         considered the FEC’s internal control over financial reporting and tested the FEC’s
         compliance with certain provisions of applicable laws, regulations, and certain provisions
         of contracts.

         SUMMARY

         As stated in our opinion on the financial statements, we found that the FEC’s financial
         statements as of and for the years ended September 30, 2013 and 2012, are presented
         fairly, in all material respects, in conformity with accounting principles generally
         accepted in the United States of America.

         Our consideration of internal control would not necessarily disclose all deficiencies in
         internal control over financial reporting that might be material weaknesses under
         standards issued by the American Institute of Certified Public Accountants. Our testing
         of internal control identified no material weaknesses in financial reporting.

         However, we identified significant deficiencies related to the IT security program
         established by the FEC. We also noted one other control issue that did not rise to the
         level of a reportable condition in a separate letter dated December 12, 2013, for
         management’s consideration.

         Our tests of compliance with certain provisions of laws, regulations, and contracts
         disclosed one instance of noncompliance that is required to be reported under
         Government Auditing Standards and the OMB Bulletin 14-02, Audit Requirements
         for Federal Financial Statements. The issue deals with noncompliance with The
         Homeland Security Presidential Directive 23 and National Security Presidential
         Directive 54, Cyber Security and Monitoring, establishing the Comprehensive
         National Cyber Security Initiative (the CNCI), and relating to Initiative No. 1,
         Manage the Federal Enterprise Network as a Single Enterprise with a Trusted
         Internet Connection (TIC).
The following sections discuss in more detail our opinion on FEC’s financial statements,
our consideration of FEC’s internal control over financial reporting, our tests of the
FEC’s compliance with certain provisions of applicable laws and regulations, and
management’s and our responsibilities.

REPORT ON THE FINANCIAL STATEMENTS

We have audited the accompanying financial statements of FEC, which comprise the
balance sheets as of September 30, 2013 and 2012, and the related statements of net cost,
statements of changes in net position, statements of budgetary resources, and statements
of custodial activity for the years then ended, and the related notes to the financial
statements.

Opinion

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of FEC as of September 30, 2013 and 2012, and the
related net cost, changes in net position, budgetary resources, and custodial activity for
the years then ended in accordance with accounting principles generally accepted in the
United States of America.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial
statements in accordance with accounting principles generally accepted in the United
States of America. Such responsibility includes the design, implementation, and
maintenance of internal control relevant to the preparation and fair presentation of
financial statements that are free from material misstatement, whether due to error or
fraud.

Auditor’s Responsibility

Our responsibility is to express an opinion on the financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; standards applicable to financial statement audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and OMB Bulletin 14-02, Audit Requirements for Federal Financial Statements (the
OMB audit bulletin). Those standards and the OMB audit bulletin require that we plan
and perform the audit to obtain reasonable assurance about whether the financial
statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments in a Federal
agency, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing opinions on the


Leon Snead & Company, P.C.                      2
effectiveness of the FEC’s internal control or its compliance with laws, regulations, and
significant provisions of contracts. An audit also includes evaluating the appropriateness
of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the financial
statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to
provide a basis for our audit opinion.

REQUIRED SUPPLEMENTARY INFORMATION

Accounting principles generally accepted in the U.S. require that Management’s
Discussion and Analysis be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by the
Federal Accounting Standards Advisory Board (FASAB) who considers it to be an
essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing
standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing
the information for consistency with management’s responses to our inquiries, the basic
financial statements, and other knowledge we obtained during our audit of the basic
financial statements. We do not express an opinion or provide any assurance on the
information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

OTHER ACCOMPANYING INFORMATION

Our audit was conducted for the purpose of forming an opinion on the basic financial
statements taken as a whole. The performance measures and other accompanying
information are presented for the purposes of additional analysis and are not required
parts of the basic financial statements. Such information has not been subjected to the
auditing procedures applied in the audit of the basic financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

OTHER AUDITOR REPORTING REQUIREMENTS
Report on Internal Control

In planning and performing our audit of the financial statements of FEC as of and for the
years ended September 30, 2013 and 2012, in accordance with auditing standards
generally accepted in the United States of America, we considered the FEC’s internal
control over financial reporting (internal control) as a basis for designing audit
procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on
the effectiveness of the FEC’s internal control. Accordingly, we do not express an
opinion on the effectiveness of the FEC’s internal control.


Leon Snead & Company, P.C.                     3
Our consideration of internal control was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control
that might be material weaknesses or significant deficiencies, and therefore material
weaknesses or significant deficiencies may exist that were not identified. However,
given these limitations, during our audit we did not identify any deficiencies in internal
control that we consider to be a material weakness. As discussed below, we identified
certain deficiencies in internal control that we consider to be significant deficiencies.

Because of inherent limitations in internal controls, including the possibility of
management override of controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A deficiency in internal control exists when the
design or operation of a control does not allow management or employees, in the normal
course of performing their assigned functions, to prevent, or detect and correct,
misstatements on a timely basis. A material weakness is a deficiency or a combination of
deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and
corrected, on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

Findings and Recommendations

1.	 Failure to Develop a Strong IT Security Program Places FEC at High Risk of
    Continued Network Intrusions

    FEC’s IT security program does not meet government-wide best practice minimum
    security requirements in many areas. We attributed this serious internal control
    vulnerability to FEC’s officials failure to establish a process that would ensure that
    Office of the Chief Information Officer (OCIO) exercise due diligence with regard to
    the establishment of information security and risk management 1 controls within the
    agency. As a result, FEC’s information and information systems have serious internal
    control vulnerabilities and have been penetrated at the highest levels of the agency,
    while FEC continues to remain at high risk for future network intrusions.




1
  Information security due diligence includes using all appropriate information as part of an organization-
wide risk management program. Using the risk management tools and techniques that are available
to organizations is essential in developing, implementing, and maintaining the safeguards and
countermeasures with the necessary and sufficient strength of mechanism to address the current threats to
organizational operations and assets, individuals, other organizations, and the Nation. Employing effective
risk-based processes, procedures, and technologies will help ensure that all federal information systems and
organizations have the necessary resilience to support ongoing federal responsibilities, critical
infrastructure applications, and continuity of government.


Leon Snead & Company, P.C.	                             4
    a.	 Risk Analysis Not Completed Before Rejection of Minimum IT Security Controls

         The FEC, unlike other federal agencies that are exempt from the Federal
         Information Security Management Act (FISMA) 2, has refused to adopt as the
         agency’s IT security standard the IT security controls and techniques released by
         the National Institute of Standards and Technology (NIST). For instance, the
         Government Accountability Office (GAO), like FEC, is exempt from FISMA
         compliance, but has adopted the NIST security requirements. GAO stated 3 that it
         “adheres to federal information security governance, such as OMB and National
         Institute of Standards and Technology guidance.” While FEC officials have
         advised that the agency follows NIST best practices “where applicable to their
         operations,” independent evaluations performed since fiscal year 2004 have
         continually reported significant weaknesses and noncompliance with IT best
         practice standards within FEC’s IT security program areas reviewed.

         FEC will remain at high risk for intrusions and data breaches unless it
         fundamentally changes its governance and management approach, and adopts a
         risk-based IT security program that is based upon the federal government’s IT
         security control standard – National Institute of Standards and Technology (NIST)
         best practices, to include:

            •	 Federal Information Processing Standards (FIPS) 199, Standards for the
               Security Categorization of Federal Information and Information Systems,
            •	 FIPS 200, Minimum Security Requirements for Federal Information and
               Information Systems,
            •	 Special Publication (SP) 800-53, Recommended Security Controls for
               Federal Systems and Organizations, and
            •	 Related Federal Information System Management Act (FISMA) security
               documents.

         FEC officials have indicated that the agency makes informed decisions when
         deciding whether to adopt government-wide IT security requirements. However,
         our audits have shown that FEC does not have a policy document that requires a
         risk-based analysis to support the agency’s decision to not adopt a minimum
         government-wide IT security requirement, and we were unable to find any
         evidence that such reviews were, in fact, performed prior to the agency refusing to
         adopt the IT security requirement. As further support, we identified other




2
  The E-Government Act (P.L. 107-347) recognizes the importance of information security to the economic and
national security interests of the United States. Title III of the E-Government Act, entitled the Federal Information
Security Management Act (FISMA), emphasizes the need for organizations to develop, document, and implement an
organization-wide program to provide security for the information systems that support its operations and assets.
3
  GAO Performance and Accountability Report – 2011, page 58.



Leon Snead & Company, P.C.	                                  5
         independent evaluations 4 performed since fiscal year 2004 that have reported
         significant deviations in FEC’s IT security program from minimum accepted best
         practice IT security controls.

         Without a risk-based analysis and supporting evidence, FEC’s critical IT security
         decisions are based upon whether the agency is exempt from the legislative
         requirement, rather than assessing if the control would provide an effective
         reduction of risks to the FEC’s information and information systems.

         For example, while FEC is required to follow the Federal Acquisition Regulations
         (FAR), the FEC refuses to adopt FAR requirements relating to requiring specific
         IT security controls and processes to be included in government contracts. FEC
         has exempted itself from compliance with the FAR sections requiring specific
         (FISMA based) IT security standards for contractors. The NIST best practice
         requirements are meant to provide the federal government with uniform and cost-
         effective IT security controls that contractors must meet to ensure that an
         agency’s information systems and information are appropriately secured.

         This significant deficiency places FEC’s information and information systems
         that are operated, and/or accessible by contractors at significant unnecessary risk,
         and greatly increases the potential for data intrusions and loss or manipulation of
         sensitive information.

    Recommendations

    1.	 Formally adopt as a model for FEC, the NIST IT security controls established in
        FIPS 199, FIPS 200, SP 800-53, and other applicable guidance that provides best
        practice IT security control requirements

         FEC Response
         OCIO officials advised that, even though the FEC is exempt from FISMA, the
         OCIO partially agrees with this recommendation, and noted that the IT Security
         Officer will review NIST 800-53 for implementation in FY 2014. The OCIO
         officials advised that they do not agree to formally adopt NIST guidelines.

         Auditor Comments
         While OCIO officials have advised that they will “review” the NIST minimum
         control requirements, they have again stated that they will not adopt the federal
         government’s minimum IT security controls best practices. Until FEC adopts
         these minimum controls, as other federal agencies have done that are also exempt,
         FEC will remain at high risk.

4
  A security control assessment report, issued to FEC by an independent contractor in December 2008 found that 40
percent of the IT security controls applicable to FEC’s IT environment had been only partially implemented, or not
implemented at all. The Office of Inspector General (OIG) in 2004 as part of reporting required by the Chief Financial
Officers (CFO) Act of 1990 first identified information technology security as a challenge that has raised serious
concerns about the effectiveness of FEC’s IT security program.




Leon Snead & Company, P.C.	                                  6
   2.	 Revise FEC policies to require that FEC contractors adhere to the FAR
       requirements which adopt FISMA and NIST IT security controls that contractors
       must follow when providing services to the federal government.

       FEC Response
       OCIO officials advised that they “do not understand the actual purpose of this
       finding. Auditors have not demonstrated how including a FAR statement
       will help improve the security posture of FEC. OCIO disagrees with this
       recommendation. As a FISMA exempt agency, the FEC incorporates language
       and is supported by FAR clauses that address the level of security necessary to
       safeguard agency security in all of its contracts. This language was agreed to by
       the agency contracting officer and ISSO. Contractors are required to adhere to the
       same level of security as FEC employees.”

       Auditor Comments
       FEC is required to follow the FAR. However, OCIO officials cite the agency’s
       FISMA exemption as the reason for not implementing IT security controls. It
       appears that regardless of the regulation or the control, if the matter relates to the
       FISMA, FEC officials exempt the agency. The decision to exempt the agency
       from required IT security controls appears to be made without any analysis of the
       costs, or the actual or potential harm to FEC by not implementing the security
       control or process.

       In addition, as discussed in this report, FEC’s IT security policies do not meet the
       minimum federal government’s “best practice” IT security controls. Therefore,
       we continue to believe that the FEC should follow FAR requirements that
       mandate use of applicable “best practice” IT security controls in all contracts.

   3.	 Revise FEC policies and procedures to require a documented, fact-based, risk
       assessment prior to declining adoption of any government-wide IT security best
       practice, or IT security requirement, including those that FEC may be legally
       exempt. Require the Chief Information Officer (CIO) to approve, and accept the
       risk of any deviation from government-wide IT security best practices that are
       applicable to the FEC business operations. Retain documentation of these
       decisions.

       FEC Response
       OCIO officials advised that they partially agree with this recommendation, and
       will review applicable NIST 800-53 for possible implementation in FY 2014.
       The FEC advised that any actions taken will be based on obtaining additional
       personnel resources. Further, all FISMA implementation must be approved by
       the commission since the FEC is legally exempt from FISMA.

       Auditor Comments
       We continue to believe that FEC’s information systems and information would be
       significantly more secure if the agency adopted the federal government’s



Leon Snead & Company, P.C.	                     7
         minimum IT security controls best practices, Presidential Directives on IT
         security, and OMB directives that provide guidance on strengthening the federal
         government’s IT security posture. We disagree that adoption of the IT security
         controls best practices would require Commission approval because the FEC is
         legally exempt. In fact, in a June 1, 2011, memorandum to the Acting Staff
         Director, the FEC Office of General Counsel noted that the FEC could voluntarily
         adopt an IT operational policy issued by the federal government’s Chief
         Information Officer as a best practice even though the FEC is specifically exempt
         from the guidance. Further, the CIO has a responsibility to ensure the FEC’s
         information and information systems are properly protected, and thus
         implementation of the best practices would be in line with this responsibility.
         Until FEC fully adopts best practice IT controls, the agency will remain at high
         risk of further intrusions and data breaches.

    b. Refusal to Adopt Government-wide IT Controls Increased Risks of Intrusions

         FEC has experienced several serious data intrusions and information breaches in
         the last few years. During our audit, we obtained information on two intrusions
         and information data breaches that are briefly discussed below. Our analysis
         indicates that if FEC had implemented government-wide minimum best practice
         IT security controls, these intrusions and breaches may have prevented and/or
         more timely detected. Details of the two most serious matters follow:

         Intrusion No. 1
         In May 2012, the FEC was a victim of a network intrusion by an Advanced
         Persistent Threat (APT) 5. Several FEC systems and a Commissioner’s user
         account were compromised by this specific threat. For approximately eight
         months, the Commissioner’s computer contained malware with the potential for a
         computer hacker to access and obtain copies of:

            •	 Matters Under Review by the agency, and not made public until final
               decisions are made, and would include such sensitive information as
               General Counsel's reports and briefs, subpoenas, and other similar items;
            •	 Specific details on the agency review processes, such as specifics on the
               criteria used for a committee to be referred to the Alternative Dispute
               Resolution (ADR); and specific dollar value variances of violations that
               result in inclusion in public audit reports; and


5
 According to NIST SP 800-39, an adversary that possesses sophisticated levels of expertise and significant resources
which allow it to create opportunities to achieve its objectives by using multiple attack vectors (e.g., cyber, physical, and
deception). These objectives typically include establishing and extending footholds within the information technology
infrastructure of the targeted organizations for purposes of obtaining information, undermining or impeding critical
aspects of a mission, program, or organization; or positioning itself to carry out these objectives in the future. The
advanced persistent threat: (i) pursues its objectives repeatedly over an extended period of time; (ii) adapts to defenders’
efforts to resist it; and (iii) is determined to maintain the level of interaction needed to execute its objectives. The
contractor also identified two additional systems that were infected, but were not shown as APT type threats.




Leon Snead & Company, P.C.	                                      8
         •	 Any sensitive FEC documentation and sensitive personal identifiable
            information.

       Although the contractor was unable to identify if the above sensitive information
       was actually accessed by the intrusion, the opportunity did exist. The agency
       hired a contractor to analyze this serious intrusion on FEC’s IT systems, and to
       provide recommended solutions to eliminating any threat discovered by the
       contractor. The contractor completed the analysis, and provided a report to
       FEC on October 5, 2012. The contractor made a significant number of
       recommendations, including that FEC should complete the actions by the end of
       October 2012. However, when we requested documentation of the actions taken
       by FEC to implement the report’s recommendations, almost one year after the
       report was issued, we were advised by FEC officials that the agency had not yet
       implemented any significant portion of the contractor’s recommendations.

       Intrusion No. 2
       In August 2013, the FEC was notified of an intrusion to the FEC’s website
       (FEC.gov). The FEC had to disable use of certain features of the website to
       conduct an analysis of the intrusion. FEC is currently receiving technical
       expertise to analyze the extent of the breach and its impact. As FEC was working
       on remediating the August 2013 intrusion, another intrusion was detected on the
       agency’s website in early fiscal year 2014.

   Recommendations

   4.	 Using the initial Corrective Action Plan (CAP) developed by the Chief
       Information Security Officer as a base, implement each of the contractor’s
       recommendations in the October 2012 Threat Assessment Program report, and
       complete all remedial actions (i.e. changing of all user passwords) within the next
       60 days, and all other tasks by February 2014. Provide sufficient budgetary and
       personnel resources to this project to ensure that actions are properly
       accomplished.

       FEC Response
       OCIO officials advised that they are moving as quickly as possible on the
       recommendations made by the contractor. OCIO has stated that several of the
       recommendations have been implemented and they are working diligently to
       implement the others as necessary.

       Auditor Comments
       The current FEC remediation plan, provided to us in late October 2013, shows
       that FEC has now begun to address recommendations in the contractor’s report.
       We continue to believe that the FEC’s IT security program would be significantly
       strengthened by implementing all of the report’s recommendations as soon as
       possible.




Leon Snead & Company, P.C.	                   9
   5.	 Provide biweekly updates to the CIO on the status of the implementation of the
       October 2012 Threat Assessment Program report recommendations to ensure that
       it continues on track, and issues that arise are addressed as soon as possible.

       FEC Response
       OCIO officials advised that they agree with this recommendation, and have
       assigned a staff person to provide a biweekly status update to the CIO.

       Auditor Comments
       Since OCIO officials have agreed to implement this recommendation, we have no
       additional comments.

   6.	 Provide semiannual corrective action plan (CAP) updates to the Commission on
       the status of the implementation of the October 2012 Threat Assessment Program
       report recommendations in accordance with Commission Directive 50.

       FEC Response
       OCIO officials advised that they will continue to update the Commission
       concerning CAPs on a semi-annual basis through the Commission Secretary’s
       Office.

       Auditor Comments
       We believe that the importance of implementing the recommendations in the
       contractor’s report should be discussed with the Commission on a regular basis.
       Therefore, not only should management continue to provide the Commission with
       updates for the financial statement audit CAP, but the CAP developed by the
       CISO regarding the October 2012 Threat Assessment Program report should also
       be provided.

   7.	 Revise all pertinent FEC policies and procedures to ensure that they address
       proper prevention and detection controls, and provide a current and authoritative
       control structure for addressing APT, and other types of intrusions. Ensure that
       this review is completed, and policies and procedures are issued by March 2014.

       FEC Response
       OCIO officials agree with this recommendation. OCIO officials stated that they
       will review FEC policies and procedures to ensure they are aligned with the
       agency’s current practices. OCIO officials further noted that FEC is working with
       the Department of Homeland Security (DHS), and is also purchasing additional
       tools and capabilities to address possible vulnerabilities and strengthen the FEC
       infrastructure.

       Auditor Comments
       Since OCIO officials agreed to implement this recommendation, we have no
       additional comments.




Leon Snead & Company, P.C.	                  10
2. Oversight and Monitoring of IT Corrective Actions are Ineffective

   FEC has failed to implement agreed upon corrective actions to address IT security
   vulnerabilities that have, in some cases, been outstanding for approximately five
   years. We attributed this significant internal control weakness to the lack of emphasis
   placed on the audit corrective action process by FEC officials; the need for more
   effective oversight and monitoring of IT operations by FEC officials; and the need for
   updated IT policies relating to this area. As a result, FEC’s information and
   information systems continue to be at high risk for further intrusions and data
   breaches.

   The OIG has expressed similar concerns about the lack of prompt and effective
   corrective actions in several reports. For example, the OIG in a June 2013, report
   advised:

       “Currently, the FEC lacks the accountability necessary to ensure compliance with
       all aspects of (FEC) Directive 50: Audit Follow-Up. It is essential that the
       Commission not only requires management to report on a semi-annual basis the
       status of outstanding recommendations, but also develop a process to ensure the
       Audit Follow-up Officials are being held accountable for implementing
       outstanding recommendations in a timely manner that are beneficial to the
       agency’s mission and will improve agency programs. Without the accountability
       necessary to ensure corrective actions are taken by management, the mission of
       the agency is consistently operating under weaker controls that can increase cost,
       expose the agency to risks, and increase the potential of fraud, waste, and abuse to
       agency programs.”

   Audit follow-up, to include the timely implementation of audit recommendations, is
   required by Office of Management and Budget Circular A-50, Audit Follow-up, as
   revised, and FEC Directive 50. The FEC directive requires FEC officials to:

       “(3) Conduct regular meetings with the Inspector General throughout the year to
       follow-up on outstanding findings and recommendations, and include reports of
       these meetings in the written corrective action plan and semi-annual reports
       required to be presented to the Commission;
       (4) Respond in a timely manner to all audit reports;
       (5) Engage in a good faith effort to resolve all disagreements; and
       (6) Produce semi-annual reports that are submitted to the agency head….”

   OMB Circular A-50, paragraph 10 requires agencies to “Assure that performance
   appraisals of appropriate officials reflect effectiveness in resolving and implementing
   audit recommendations.”

   Finally, OMB Circular A-123, Management’s Responsibility for Internal Control,
   Section V. provides that agency managers are responsible for taking timely and
   effective action to correct deficiencies; correcting deficiencies is an integral part of



Leon Snead & Company, P.C.                    11
   management accountability and must be considered a priority by the agency;
   corrective action plans should be developed for all material weaknesses, and progress
   against plans should be periodically assessed and reported to agency management.
   Management should track progress to ensure timely and effective results. A-123 also
   provides that “As managers consider IG and GAO audit reports in identifying and
   correcting internal control deficiencies, they must be mindful of the statutory
   requirements for audit follow-up included in the IG Act, as amended and OMB
   Circular A-50, Audit Followup. Management has a responsibility to complete action,
   in a timely manner, on audit recommendations on which agreement with the IG has
   been reached.”

   Due to the lack of emphasis placed on the audit corrective action process, OCIO has
   not implemented agreed upon corrective actions to address IT security vulnerabilities.
   During our FY 2013 Financial Statement Audit, we found that OCIO officials have
   not taken action on most of the audit recommendations contained in the 2012 and
   prior years’ FEC financial statement audit reports, nor have they implemented
   corrective actions on critical issues identified in an independent contractor’s internal
   control report.

   Recommendations

   8.	 Assure that the annual performance plans of all appropriate audit follow-up
       officials reflect their responsibility to monitor and ensure the timely
       implementation of audit recommendations, as required by OMB Circular A-50.

       FEC Response
       OCIO officials advised that because performance plans for FY 2014 have already
       been developed and implemented, the OCIO will revisit this recommendation in
       FY 2015.

       Auditor Comments
       We believe that the issues noted in this report, and in OIG’s management
       challenges included in FEC’s 2012 Performance and Accountability Report
       (PAR), and other OIG reports, show that FEC has not placed sufficient emphasis
       on implementing corrective actions to address reported internal control
       weaknesses. This problem can be best illustrated by the failure to take any
       actions on a critical contractor’s report that addressed a serious intrusion into
       FEC’s information systems at the highest levels of governance within the agency.
       Appropriate FEC officials, as required by OMB A-50, should be evaluated on
       implementation of corrective actions in a timely manner. We believe this
       recommendation should be implemented immediately.

   9.	 Require the audit follow-up official to develop a tracking process that would
       include monthly reports to the CIO, and highlight key tasks, progress, and missed
       target dates, when applicable.




Leon Snead & Company, P.C.	                   12
       FEC Response
       OCIO advised that they agree with this recommendation and have assigned an
       individual to track audit follow-up actions, that the status meetings will be
       recorded to show the progress of this recommendation.

       Auditor Comments
       Since OCIO officials agreed to implement this recommendation, we have no
       additional comments.

   During this year’s audit, we conducted follow-up testing to determine the status of
   prior years’ reported significant deficiencies, and the status of these significant
   deficiencies are outlined below.

   a.	 After Five Years, FEC Has Made No Progress in Implementing a System to
       Recertify Users’ Access Authorities

       While FEC agreed in 2009 to implement an annual recertification of users’ access
       authorities to the FEC network and applications, as we disclosed in each
       subsequent audit, including our 2013 follow-up testing, FEC has made no
       progress implementing a process for recertifying users’ access authorities. During
       our 2013 audit, we were advised by the Deputy Chief Information Officer (DCIO)
       for Operations that the agency no longer agrees to periodically review users’
       access authorities. We noted that this decision conflicts with FEC IT policy and
       prior management responses.

       IT policy 58-2.2, Account Management Policy, states “All user account access
       rights and privileges will be periodically reviewed and validated in accordance
       with General Support System...system security plans..." The security plan for the
       General Support System, dated 2009, contains a control requirement that the
       users’ accounts will be reviewed every six months.

       Subsequently, we met with the Chief Information Officer (CIO) in mid-August
       2013, to discuss the lack of corrective actions taken by the agency on this and
       other problem areas. We were advised by the CIO that subsequent to our meeting
       with the Deputy CIO for Operations, the FEC was taking a new look at the prior
       year’s audit recommendations. Information was then provided that indicated that
       the Office of the CIO may begin to send information to users’ supervisors to
       review access authorities; however, this review has not yet been implemented and
       there were no details provided on how the system would work or when the control
       would be implemented. Currently, FEC is not compliant with best practices, and
       officials do not have assurance that users only have access to information and
       information systems that are necessary to accomplish job responsibilities. The
       importance of this control process can be illustrated by recent data breaches of
       FEC information and information systems, as follows:




Leon Snead & Company, P.C.	                   13
       •	 In July 2012, an FEC employee discovered that they had unauthorized access
          to personnel-related files, labor management files, and Administrative Law
          files.
       •	 In November 2012, it was determined that an FEC employee retained access
          to OGC files for two years after being transferred from OGC to another office
          within FEC.

       Had FEC implemented the audit recommendation as it agreed to do in 2009, an
       effective review of user access authorities could have detected these problems.

   Recommendations

   10. Establish a project with the project manager reporting to the CIO to help ensure
       that this long-delayed project will be implemented within the next three months.
       Require the project director to provide biweekly updates to the CIO. Provide
       necessary budgetary and personnel resources to ensure that this project is
       completed timely.

       FEC Response
       OCIO officials advised that they have assigned an individual as the Project
       Coordinator for this recommendation. This individual will work with the IT
       Security Officer to report biweekly status updates to the CIO. Review of users’
       access will be implemented at the end of November.

       Auditor Comments
       Since OCIO officials agreed to this recommendation, we have no additional
       comments.

   11. Reissue	 FEC Policy 58-2.2 to require annual recertification of users’ access
       authorities by supervisory personnel who would have knowledge of the users’
       requirements for accessing FEC information and information systems. Ensure
       that the policy contains sufficient operational details to enable an effective review
       and update process.

       FEC Response
       OCIO advised that they concur with this recommendation. OCIO officials noted
       that the agency will send a report to data owners to verify user access authorities
       in mid-December; however, managers and data owners are accountable to report
       access changes to OCIO.

       Auditor Comments
       OCIO officials agreed to this recommendation.               However, before the
       recommendation can be closed, additional information is needed concerning the
       process that will be used in ensuring that this control is effectively implemented
       with the agency.




Leon Snead & Company, P.C.	                    14
    b.	 Access Control Weaknesses Pose a Risk to FEC’s Information and

        Information Systems


        Access controls established by FEC are weak, and provide vulnerabilities that
        could be exploited. We have reported significant user control weaknesses within
        FEC’s IT security program since 2009. The problems we reported with FEC’s
        access controls, and the actions taken by FEC to remediate the problem, if any,
        are discussed in the following paragraphs.

        •	 Accounts with Passwords that Never Expire: FEC officials had not taken
           action to address the issues we noted in our prior audit dealing with
           approximately 140 accounts that did not have a password expiration date; a
           large percentage of these accounts have not had their password changed for
           years, and contained some form of administrator 6 authority.

            In response to our 2012 audit report, the Deputy CIO for Operations advised
            that the OCIO agreed in part with these recommendations, and that the FEC
            would complete a review of those accounts by July 2013. However, when we
            requested documentation to support the corrective actions taken on these
            problems in August 2013, we found that no actions had yet been taken by
            OCIO officials.

        •	 Processes for Assigning Replacement and Initial Passwords 7: During our
           audit, we requested all FEC policies and operating procedures relating to the
           assignment of replacement and initial passwords for testing. We were advised
           by OCIO officials that the FEC did not have detailed written policies or
           operating procedures for establishing initial account passwords or replacement
           passwords. OCIO officials stated that “When systems administrators (SAs)
           are notified, through the FEC System Access (FSA), that there is a need to
           establish an account, the SA then establishes an account with a generic
           password of his or her choosing; this password is not recorded for security
           reasons. Then either through the new hire orientation program, or through the
           help desk, the person is instructed to change this password and it must be
           changed before access to the system is granted.”

            The absence of specific FEC policies and operating procedures prevents FEC
            from setting requirements for this important area, and unnecessarily places
            this area at risk.




6
  The term used for an account that has privileges that normal accounts do not. In most cases, for the

system or network on which it is located, the account could have almost unlimited authority.

7
  These terms are used to describe that part of the administration of password (authentication controls)

when a predetermined (or generic) password is provided to a new user during initial login process and 

when replacement passwords are provided to existing users who are unable to login with an existing 

password (e.g. password is forgotten).



Leon Snead & Company, P.C.	                          15
       •	 Login Passphrase for Contractors: An audit report released by the Office of
          the Inspector General (OIG), 2010 Follow-Up Audit of Privacy and Data
          Protection, Federal Election Commission, Audit Report Number OIG-10-03,
          contained a finding related to access controls. The OIG stated in their audit
          report,

               “We were informed by the Information Systems Security Officer that
               encrypted laptops assigned to contractors use an encryption passphrase
               assigned by the FEC. …it appears the same passphrase is used for all
               contractors. The passphrase assigned to contractors is not suitably
               complex, is relatively intuitive, and could be easily guessed or “hacked”
               by using basic password detection or “cracking” software. The lack of a
               unique secret passphrase for each individual increases the risk that the data
               on that laptop could be accessed by an unauthorized individual.”

           We followed up on this issue and confirmed that the problem reported by the
           auditors in 2010 continued into FY 2013. For example, the same passphrase
           has been provided to us for use since 2009, and we were not required to
           change the passphrase. Therefore, we agree with the prior auditors’
           conclusion that this weakness substantially negates the effectiveness of this
           control.

           The CISO advised that the OCIO currently has the licenses needed to provide
           all users with their own unique passphrase, and believes that this item should
           be closed. However, as noted above, when we initiated the 2013 financial
           statement audit, we were provided the same login passphrase as we had used
           since 2009. The system did not require us to change the assigned password.
           Therefore, we believe that this problem has not yet been corrected.

   Recommendations

   12. Revise	 FEC policies and operating procedures to require the minimum best
       practices controls contained in the Federal Desktop Core Configuration (FDCC)
       and the United States Government Configuration Baseline (USGCB) for those
       systems that require user identification and passwords.

   13. Undertake a comprehensive review of user accounts that have been granted non-
       expiring passwords. Require detailed information from account owners on the
       need for non-expiring accounts, including the development of other alternatives,
       before reauthorizing the accounts’ access. Develop FEC policies and operating
       procedures to implement this recommendation.

   14. Whenever possible, require accounts with non-expiring passwords to be changed
       at least annually. Establish substantially more robust password requirements for
       accounts granted non-expiring passwords. Develop FEC policies and operating
       procedures to implement this recommendation.



Leon Snead & Company, P.C.	                    16
   15. Immediately terminate those accounts with non-expiring passwords that have not
       accessed their accounts within the last 12 months. Develop FEC policies and
       operating procedures to implement this recommendation to include a data
       retention policy for historical data.

       FEC Response Recommendations 12-15
       OCIO officials advised that they concur with these recommendations. OCIO
       officials noted that they will investigate the feasibility, workload and impact of
       implementing this recommendation.

       Auditor Comments
       While OCIO officials advised that they concur with the recommendations, they
       further state that they plan to “investigate the feasibility” of the recommendations.
       We continue to believe that the recommendations should be fully implemented,
       and would further strengthen FEC’s IT security program.

   16. Strengthen controls over the establishment of initial and replacement (default)
       passwords, to include requiring that random passwords be used, and the default
       passwords used be changed monthly. Develop FEC policies and operating
       procedures to implement this recommendation.

       FEC Response
       OCIO officials advised that they do not believe that the current process presents
       security risks. The default password is created to aid the Help Desk team in the
       user orientation process. It is not the case that a user would be able to use the
       default password to login to a client machine without the aid of the Help Desk.

       Auditor Comments
       NIST SP 800-118, Guide to Enterprise Password Management (Draft), provides
       that there are two types of techniques used to attack passwords: guessing and
       cracking. Guessing involves repeatedly attempting to authenticate using default
       passwords, dictionary words, and other possible passwords. NIST further
       provides that “Guessing attacks can be mitigated rather easily by using a
       combination of two methods. First, ensure that passwords are sufficiently
       complex so that attackers cannot readily guess them….Organizations should also
       ensure that other trivial passwords cannot be set, such as the username or person’s
       name, “password,” the organization’s name, simple keyboard patterns, dates,
       dictionary words, and names of people and places.”

       NIST SP 800 notes that “…special case of password guessing is the use of default
       passwords for password resets, such as when accounts are first created. A
       password reset is often accomplished by setting a one-time password (OTP),
       which is a password that is set to expire immediately, and thus can only be used to
       gain access to a system one time. An example of how OTPs are used is a help
       desk staff member creating a new account. The help desk member sets an OTP



Leon Snead & Company, P.C.                     17
       for an account and provides the OTP to the user. The user may log in with the
       OTP once, at which point the OTP expires and the user is required to set a
       new password. Randomly generated or arbitrarily chosen OTPs, not default or
       patterned passwords, should be used during account creation and password reset
       processes. This ensures that if the user does not promptly change the assigned
       password, that the password will not be easily guessable.

       We believe the NIST publication supports that FEC should adopt this
       recommendation.

   17. Establish written procedures and develop a policy for FEC contractor computer
       orientation that requires contractors to create their own unique login passphrase.
       Also, ensure that all current contractors have created their own unique login
       passphrase.

       FEC Response
       OCIO officials advised that it “disagrees with this finding,” and “OCIO assigned
       a new passphrase to all users.”

       Auditor Comments
       As discussed in this report, when we initiated the FY 2013 audit, our newly
       assigned laptops were assigned the same passphrase login being used by
       contractors since 2009. Therefore, management’s assertion in their response that
       all users have been assigned a new passphrase is incorrect. We believe that
       FEC’s control in this area is not operating effectively; OCIO does not have a
       control in place to determine if all contractors have established a unique
       passphrase. We continue to believe this recommendation should be implemented.

   c.	 FEC’s Vulnerability Scanning Program Needs Significant Strengthening to
       Further Reduce Risks

       FEC’s vulnerability scanning program did not meet best practices. We found
       during our 2013 audit that individual employees’ workstations continued to be
       excluded from the scanning process, a significant omission. Additionally, system
       vulnerabilities identified from the scanning process were not timely mitigated.

       Best practices address vulnerability scanning as one of the recommended security
       controls and part of the risk assessment process. For example, NIST recommends
       that organizations: “Analyze findings, and develop risk mitigation techniques to
       address weaknesses. To ensure that security assessments provide their ultimate
       value, organizations should conduct root cause analysis upon completion of an
       assessment to enable the translation of findings into actionable mitigation
       techniques. These results may indicate that organizations should address not only
       technical weaknesses, but weaknesses in organizational processes and procedures
       as well.”




Leon Snead & Company, P.C.	                  18
       Without the scanning of individual workstations included as part of an effective
       scanning program, FEC cannot detect and correct vulnerabilities and assure that
       devices have proper security configurations. In addition, the failure to correct
       known vulnerabilities identified in the scanning process is a significant internal
       control weakness. These weaknesses and related uncorrected vulnerabilities
       present opportunities for intrusions into FEC’s information and information
       systems. The lack of an effective agency wide scanning program, (that would
       include workstations, servers, applications, etc.), in our opinion, contributed to the
       control issues that allowed recent intrusions into FEC’s website.

   Recommendations

   18. Include	 all components of the general support system (GSS), including
       employees’ workstations, and other FEC devices and applications into the
       organization’s vulnerability/security scanning process and ensure that they are
       assessed at least semi-annually.

   19. Strengthen controls to ensure that vulnerabilities/weaknesses identified through
       the vulnerability scanning tests are completed within 60 days of identification, or
       document an analysis and acceptance of risks for longer term remediation.

       FEC Response
       OCIO officials agreed with this recommendation. OCIO officials advised that the
       agency is in the process of purchasing a software security application to ensure
       FEC assets are patched regularly. Any high vulnerability that cannot be patched
       in 60 days will be documented, and an acceptance memorandum will be created
       for CIO/designee signature on longer term remediation.

       Auditor Comments
       Since OCIO officials agreed to this recommendation, we have no additional
       comments.

   d.	 Configuration Security Controls and FDCC/USGCB Requirements Need
       Strengthening

       FEC needs to further strengthen its configuration security controls so that
       significant vulnerabilities do not continue to impact FEC’s IT security program.
       Currently, the integrity of the FEC change management process relies on the
       manual recording of all system changes in an outside application, there is no tool
       in place to identify all changes made to the configuration of FEC’s system, and
       there are no logs that collect changes made to the system. Therefore, there is
       reduced assurance that all changes are processed under the change management
       framework established, or that changes made outside the framework will be
       identified. Further, our current and prior audits found that while FEC has issued
       configuration baseline standards for a number of its systems; these standards have
       not been fully implemented.



Leon Snead & Company, P.C.	                    19
           The current FEC baseline configuration standards require that machines’
           “administrator account” be renamed and that access to administrator authorities be
           limited to only those users requiring such access. Based on the computer settings
           we reviewed, users had been given administrator rights allowing them to change
           local settings, such as disabling the screen saver and the ability to start “services”
           manually. By disabling the screen saver, users can override the communication
           control setting in which re-authentication (password) is required after a set period
           of inactivity. These settings do not adhere to the United States Government
           Configuration Baseline (USGCB), formerly referred to as the Federal Desktop
           Core Configuration (FDCC) mandate.

           In addition, audits found that FEC had not yet fully implemented security control
           requirements that OMB established in 1997 as “best practices” security
           requirements for Windows computers. FEC advised us in past years that it
           planned to implement FDCC requirements, that the agency agreed to adopt, in a
           phased approach when new desktop/laptop computers are replaced 8. While FEC
           has performed an evaluation of workstations for compliance with USGCB (United
           States Government Configuration Baseline), an evaluation of Internet Explorer
           configuration settings was not included in the evaluation. Key security settings
           are also provided for Internet Explorer in the FDCC/USGCB. Therefore, FEC is
           still not in full compliance with these OMB requirements, almost ten years after
           they were first issued.

       Recommendations

       20. Implement	 baseline configuration standards for all workstations and require
           documentation by the CIO to approve and accept the risk of any deviation.

           FEC Response
           OCIO officials advised that the FEC is currently working to implement USGCB
           standards. OCIO officials noted that the agency has purchased a software security
           application to monitor configuration changes in users’ workstations. Any
           deviation will be documented and approved by CIO or his designated official.

           Auditor Comments
           Since OCIO officials have agreed to implement this recommendation, we have no
           additional comments.

       21. Implement	 automated logging of all configuration changes and review logs
           regularly to ensure that all system changes, including changes to workstations, are
           processed through the change management framework.




8
    FEC has replaced its laptops, and the standards have still not been fully implemented.


Leon Snead & Company, P.C.	                               20
       FEC Response
       OCIO officials advised that the agency has purchased a software security
       application, which provides OCIO the capability to automate logging of all
       configuration changes and review of logs. The full implementation of this
       application is estimated to be completed by the end of December 2013.

       Auditor Comments
       Since OCIO officials have agreed to implement this recommendation, we have no
       additional comments.

   22. Fully implement USGCB/FDCC	 standards and perform scanning of Internet
       Explorer configuration settings.

       FEC Response
       OCIO officials advised that the agency plans to begin USGCB implementation
       agency-wide the second quarter of calendar year 2014. OCIO officials noted that
       the project completion date is dependent upon the successful implementation of
       the various phases of the project. A project plan is being developed, and the plan
       will include evaluating Internet Explorer settings.

       Auditor Comments
       Since OCIO officials have agreed to implement this recommendation, we have no
       additional comments.

   e.	 Assessment and Accreditation of the FEC’s General Support System Still Not
       Completed

       FEC needs to perform an assessment of its general support system to identify
       vulnerabilities that could allow further network intrusions and data breaches. In
       addition, FEC has not followed FEC policy 58-2.4, Certification and
       Accreditation Policy, which establishes controls over the process of obtaining
       independent assurance that FEC major applications and general support system
       (GSS) are capable of enforcing the security policies that govern their operations.
       FEC 58-2.4 states that “This policy is designed to help increase FEC managers',
       users', and external consumers' confidence and trust that information technology
       systems will behave in a reliable, predictable manner, and with security controls
       commensurate with information sensitivity and risk levels. This policy is enabled
       by independent certifications carried out at regular intervals, and by
       management's deliberate acceptance of residual risk (accreditation).”

       In our prior audit, we reported that FEC had not performed an assessment of its
       key medium risk GSS since December 2008; needed to strengthen FEC policy 58­
       2.4 to provide additional guidance on what decision points determine when a new
       accreditation is required, and provide more specific documentation requirements
       so the agency could track changes made in the GSS. These changes would enable




Leon Snead & Company, P.C.	                   21
       FEC officials to make informed decisions on whether security controls and
       operations need to be assessed and the system’s accreditation to be updated.

       During our 2013 audit, we followed up to determine whether the FEC had taken
       actions to assess and accredit its GSS. Similar to information we obtained during
       our 2012 audit, FEC officials advised that the agency is planning to perform a
       new assessment of the GSS, and subsequently accredit that the FEC has sufficient
       controls for the information and data in the GSS. We were advised that the
       review will be implemented in November 2013.

   Recommendations

   23. Perform within this fiscal year a new assessment and accreditation of the GSS
       using NIST SP 800-53 as the review criteria.

       FEC Response
       OCIO officials advised that they concur with this recommendation. OCIO
       officials noted that the agency will have a Risk Vulnerability Assessment
       performed by the Department of Homeland Security (DHS) in November 2013.
       In addition, OCIO officials stated that the agency has signed a Memorandum of
       Agreement with DHS to obtain the necessary hardware and software to
       implement continuous monitoring for the FEC’s LAN.

       Auditor Comments
       Since OCIO officials have agreed to implement this recommendation, we have no
       additional comments.

   24. Strengthen FEC Policy 58-2.4 so that it provides additional guidance on what
       decision points determine when a new assessment and accreditation is required;
       and the specific documentation requirements that need to be maintained in order
       for the agency to track changes so it can make informed decisions on when major
       changes drive the need for a new assessment and/or updated accreditation.

       FEC Response
       OCIO officials advised that the agency will look at this policy and update it as
       necessary, and that the agency will implement continuous monitoring in FY 2014.

       Auditor Comments
       OCIO officials stated that they will review the cited policy and update as
       necessary. We believe that the cited FEC policy is outdated and needs to be
       revised to address the problem areas noted in this document.

   f. Testing and Exercise FEC’s COOP - Key Documentation Not Available

       FEC still has not yet fully and effectively tested and exercised the Continuity of
       Operations Plan (COOP) – a critical element in development of a comprehensive



Leon Snead & Company, P.C.                    22
       and effective plan. As discussed in Federal Continuity Directive (FCD) No. 1,
       until the COOP plan is tested and exercised, any deficiencies in the plan cannot be
       determined, and the agency remains at risk of not being able to carry out the
       mission of the agency in the event of a disruption to normal business operations.

       During fiscal years 2011 through 2013, we reviewed documents provided by FEC
       officials, and determined that FEC did not meet either its own testing
       requirements or the federal requirements that are applicable to the agency. In
       fiscal year 2013, we requested documentation from FEC officials that would
       enable us to follow-up on findings and recommendations in our prior audit report.
       We reviewed documents provided by FEC officials, and found that the documents
       were the same as we had reviewed in 2012. The table below lists key federal
       requirements, and whether the test documentation provided was in substantial
       compliance with these requirements.

        Federal Continuity Directive No. 1, Appendix K                        Auditor Comments
        Annual testing of alert, notification, and activation              This requirement was not met.
        procedures for continuity personnel and quarterly testing of
        such procedures for continuity personnel at agency
        headquarters.
        Annual testing of plans for recovering vital records (both         Documentation was provided to
        classified and unclassified), critical information systems,        show that critical information
        services, and data.                                                systems were tested.
        Annual testing of primary and backup infrastructure systems        This requirement was not met.
        and services (e.g., power, water, fuel) at alternate facilities.

        Annual testing and exercising of required physical security        This requirement was not met.
        capabilities at alternate facilities.
        Testing and validating equipment to ensure the internal and        This requirement was not met.
        external interoperability and viability of communications
        systems, through monthly testing of the continuity
        communications capabilities outlined in Annex H (e.g.,
        secure and non-secure voice and data communications).
        An annual opportunity for continuity personnel to                  This requirement was not met.
        demonstrate their familiarity with continuity plans and
        procedures and to demonstrate the agency’s capability to
        continue its essential functions.
        An annual exercise that incorporates the deliberate and            This requirement was not met.
        preplanned movement of continuity personnel to an alternate
        facility or location.
        An opportunity to demonstrate that backup data and records         Some documents were provided
        required supporting essential functions at alternate facilities    that showed some portions of
        or locations are sufficient, complete, and current.                this requirement were tested.


       The OIG issued an Inspection Report, Inspection of the Federal Election 

       Commission's Disaster Recovery Plan and Continuity of Operations Plans, dated





Leon Snead & Company, P.C.                             23
       January 2013, which addressed FEC’s COOP, and noted problems similar to what
       we reported in our 2012 audit report. The inspection report stated:

           “…the FEC Continuity of Operations Plans (COOP) for Information
           Technology Division (ITD) does not include a COOP exercise schedule or
           plan. In addition, FEC’s exercise plan should be in compliance with federal
           government requirements such as FCD 1, rather than FEC’s internal policies
           that are not fully aligned with federal government standards. FEC has not
           developed an exercise plan that is a simulation of an emergency designed to
           validate the viability of one or more aspects of the COOPs… In addition, FEC
           has not developed and maintained a viable contingency planning program for
           their information systems to include exercising the plan. FEC will not be able
           to identify planning gaps that may only be discovered during an exercise. Key
           personnel have not validated their operational readiness for emergencies by
           performing their duties in a simulated operational environment….”

       FDC No.1, Appendix K, Test, Training and Exercise, require that COOP
       documents must be validated through tests, training, and exercises (TT&E), and
       that all agencies must plan, conduct, and document periodic TT&Es to prepare for
       all-hazards, continuity emergencies and disasters, identify deficiencies, and
       demonstrate the viability of their continuity plans and programs. Deficiencies,
       actions to correct them, and a timeline for remedy must be documented in an
       organization’s CAP (corrective action plan). FEC Policy No. 58.2.9, Continuity
       of Operations and Disaster Recovery Policy, provides that plans should not be
       considered valid until tested for practicality, executability, errors and/or
       omissions. The initial validation test should consist of a simulation or tactical
       test. Once validated, plans should be tested annually, or when substantive
       changes occur to the system, to the system environment, or to the plan itself. Test
       results should be maintained in a journal format and retained for analysis.
       Validated change recommendations resulting from testing activities should be
       incorporated into plans immediately.

   Recommendations

   25. Ensure that sufficient resources are assigned to the task of testing the COOP, a
       critical IT control process, in order to reduce risk to the FEC, and complete all
       required tests in a timely manner. Ensure that appropriate documentation is
       retained as required by FCD No. 1 to support that FEC has met all applicable
       federal TT&E requirements.

       FEC Response
       OCIO officials advised that they agree with this recommendation, and will assign
       staff to ensure the COOP is tested in a timely manner.

       Auditor Comments
       Since OCIO officials have agreed to implement this recommendation, we have no
       additional comments.


Leon Snead & Company, P.C.                    24
   26. Develop a detailed POA&M to ensure that required COOP testing and exercises
       are completed as soon as possible.

       FEC Response
       OCIO advised that they agree with this recommendation, and that a plan of action
       and milestone document will be developed to ensure COOP testing and exercises
       are completed as soon as possible.

       Auditor Comments
       Since OCIO officials have agreed to implement this recommendation, we have no
       additional comments.

We noted another control issue that did not rise to the level of a reportable condition in a
separate letter dated December 12, 2013 for management’s consideration.

A summary of the status of prior year recommendations is included as Attachment 1.

REPORT ON COMPLIANCE

As part of obtaining reasonable assurance about whether the agency’s financial
statements are free of material misstatement, we performed tests of its compliance with
certain provisions of laws, regulations, and significant provisions of contracts,
noncompliance with which could have a direct and material effect on the determination
of financial statement amounts, and certain other laws and regulations. We limited our
tests of compliance to these provisions and we did not test compliance with all laws and
regulations applicable to the FEC. Providing an opinion on compliance with certain
provisions of laws, regulations, and significant contract provisions was not an objective
of our audit and, accordingly, we do not express such an opinion.

In connection with our audit, we noted one instance described below of noncompliance
that is required to be reported according to Government Auditing Standards and the OMB
audit bulletin guidelines. No other matters came to our attention that caused us to believe
that FEC failed to comply with applicable laws, regulations, or significant provisions of
laws, regulations, and contracts that have a material effect on the financial statements
insofar as they relate to accounting matters. Our audit was not directed primarily toward
obtaining knowledge of such noncompliance. Accordingly, had we performed additional
procedures, other matters may have come to our attention regarding the FEC’s
noncompliance with applicable laws, regulations, or significant provisions of laws,
regulations, and contracts insofar as they relate to accounting matters.

Noncompliance with Comprehensive National Cyber Security Initiative

We determined that the FEC is noncompliant with The Homeland Security Presidential
Directive 23, and National Security Presidential Directive 54, Cyber Security and
Monitoring. These establish the Comprehensive National Cyber Security Initiative, and



Leon Snead & Company, P.C.                     25
relate to Initiative No. 1, Manage the Federal Enterprise Network as a Single Enterprise
with a Trusted Internet Connection (TIC).

TIC was introduced in OMB Memorandum M-08-05, Implementation of Trusted Internet
Connections, dated November 20, 2007.          The initiative was described in the
memorandum as an effort to develop "a common [network] solution for the federal
government" that would reduce the number of external Internet connections for the entire
government to 50. The memorandum stated that "each agency will be required to
develop a comprehensive POA&M (Plan of Action and Milestones)" to implement TIC,
but it neither defined "agency" nor referred to any legal authority supporting the
initiative. FEC’s Office of General Counsel (OGC) analyzed this document and
determined that since the FEC is exempt from the Federal Information Security
Management Act (FISMA), and its predecessor statute, the Government Information
Security Reform Act, and because the TIC requirement to implement POA&Ms appeared
to be an expansion of a FISMA related information security requirement, FEC was
exempt from implementing TIC.

In a June 2009 memorandum to the Staff Director, OGC provided that on January 8,
2008, former President Bush signed HSPD-23 which authorizes the Department of
Homeland Security (DHS) to deploy Einstein 2, an automated intrusion detection system
(IDS), across federal networks. Einstein 2 would allow the DHS National Cyber Security
Division of the U.S. Computer Emergency Readiness Team (US-CERT) to consolidate
Federal system intrusion detection, incident analysis and cyber response capabilities. The
directive also provided that logon banners be set in place for both internal and external
access to Federal Government information systems. HSPD-23 is classified; therefore the
specific authorizing statute for the directive and the extent of its application to the Federal
Election Commission is unknown. The OGC stated that “We confirmed with DHS on
November 12, 2008 that in DHS’s view the Commission is within the scope of the
presidential directive. However, unclassified legal briefing materials provided by the
Department of Justice indicate that at least part of the directive may be authorized by
FISMA, from which the FEC is exempt. Thus, there is a possibility that HSPD-23 is only
partially applicable to the FEC, or is not applicable at all to the FEC. Since the directive
itself is classified, and limited unclassified information has been released, we do not have
sufficient information at this time to confirm HSPD-23's applicability to the FEC.”

In FY 2012, we provided additional documentation to FEC’s OGC that indicated that TIC
was applicable to FEC, and we requested that OGC reassess its determination on this
matter. In an August 2012 memorandum to the Staff Director, the OGC stated that
“…we conclude that FEC must comply with all requirements of…TIC.” Based upon this
OGC opinion, FEC officials agreed, in their response to our 2012 financial statement
audit report, to implement TIC. However, our 2013 audit tests found that no actions have
been taken by FEC to implement this Presidential Directive over five years after the
directive mandated this security requirement. Had FEC performed necessary due
diligence on this control as far back as 2007, it would have improved IT security controls
that may have prevented or alerted responsible officials of a network intrusion.




Leon Snead & Company, P.C.                       26
Recommendation

27. Develop a time-phased corrective action plan to address the prompt implementation
    of the TIC by FEC.

   FEC Response
   OCIO officials advised the agency will continue to work with a TIC provider to
   create a solution for TIC implementation. The OCIO will create a plan to implement
   TIC as soon as they are able to find a cost effective solution.

   Auditor Comments
   We continue to believe that the FEC should implement this long-standing presidential
   and DHS directive.

Restricted Use Relating to Reports on Internal Control and Compliance

The purpose of the communication included in the sections identified as “Report on
Internal Control” and “Report on Compliance” is solely to describe the scope of our
testing of internal control over financial reporting and compliance, and to describe any
material weaknesses, significant deficiencies, or instances of noncompliance we noted as
a result of that testing. Our objective was not to provide an opinion on the design or
effectiveness of the FEC’s internal control over financial reporting or its compliance with
laws, regulations, or provisions of contracts. The two sections of the report referred to
above are integral parts of an audit performed in accordance with Government Auditing
Standards in considering the FEC’s internal control over financial reporting and
compliance. Accordingly, those sections of the report are not suitable for any other
purpose.

AGENCY COMMENTS

The Acting Chief Financial Officer (ACFO) responded to the draft report in a
memorandum dated December 10, 2013, which indicated that the agency responses to
each recommendation had been previously provided. We have included a synopsis of
FEC’s response, and our comments after each recommendation. The ACFO also noted in
the memorandum that the agency has taken significant steps during FY 2013 to develop
and implement a plan to improve the agency’s IT security posture. Specifically, the CIO
has signed a Memorandum of Agreement (MOA) with DHS to perform a comprehensive
Risk Vulnerability Assessment, and another MOA to participate in DHS’s Continuous
Diagnostics and Mitigation (CDM) program beginning in January 2014. The ACFO
believes “The new service will allow the agency to better identify and defend against
cyber threats.”

AUDITOR EVALUATION

We continue to believe that the FEC’s information and information systems are at high
risk because of the decision made by FEC officials not to adopt all applicable minimum
IT security requirements that the Federal government has established. In addition, FEC


Leon Snead & Company, P.C.                     27
has not timely implemented actions necessary to remediate identified weaknesses in IT
controls, some of which we first reported in FY 2009.

The FEC’s December 10, 2013, written response to the audit is included in its entirety as
Attachment 2. The FEC’s written response was not subjected to the auditing procedures
applied in the audit of the financial statements and accordingly, we express no opinion on
it.

Leon Snead & Company, P.C.
Rockville, Maryland
December 12, 2013




Leon Snead & Company, P.C.                    28
                                                                                       Attachment 1


                          Status of Prior Year Recommendations


Rec.                         Audit Recommendations                                    Status as of
No.                                                                               September 30, 2013
1.     Formally adopt as a model for FEC, the NIST IT security controls          Recommendation open.
       established in FIPS 200 and SP 800-53, as the Government
       Accountability Office has done.
2.     Revise FEC policies to require that FEC contractors adhere to the FAR     Recommendation open.
       FISMA related requirements, and mandate that FEC contractors follow
       FISMA IT controls when providing services to the federal government.
       Use NIST SP 800-53 as guidance for establishing IT controls that
       contractors must follow.
3.     Develop a time-phased corrective action plan to address the prompt        Recommendation open.
       implementation of the TIC by FEC. Ensure that TIC is implemented as
       soon as possible, but no later than June 2013.
4.     Revise FEC policies and procedures to require a documented, fact-based    Recommendation open.
       risk assessment prior to deciding not to adopt a government-wide IT
       security best practice, or IT security requirement contained in the
       Federal Acquisition Regulations. Require the CIO to approve and
       accept the risk of any deviation from government-wide IT security best
       practices (i.e. NIST, FAR IT controls) that are applicable to the FEC
       business operations. Retain documentation of these decisions.
5.     Immediately implement government-wide requirements relating to            Recommendation open.
       strengthened password controls. Revise FEC policies and operating
       procedures to require the minimum best practices controls contained in
       FDCC and USGCB.
6.     Undertake a comprehensive review of user accounts that have been          Recommendation open.
       granted non-expiring passwords. Require certification from account
       owners detailing the need for non-expiring accounts, including the
       development of other alternatives, before reauthorizing the accounts’
       access. Develop FEC policies and operating procedures to implement
       this recommendation.
7.     Whenever possible, require accounts with non-expiring passwords to be     Recommendation open.
       changed at least annually. Establish substantially more robust password
       requirements for accounts granted non-expiring passwords. Develop
       FEC policies and operating procedures to implement this
       recommendation.
8.     Immediately terminate those accounts with non-expiring passwords that     Recommendation open.
       have not accessed their accounts within the last 12 months. Develop
       FEC policies and operating procedures to implement this
       recommendation.
9.     Remove the 400 disabled accounts noted during this audit by the end of    Closed.
       the calendar year, and on a semi-annual basis conduct a review of the
       active directory to remove disabled accounts. Revise FEC policies and
       operating procedures to implement this recommendation.
10.    Strengthen controls over the establishment of initial and replacement     Recommendation open.
       (default) passwords, to include requiring that random passwords be
       used, and the default passwords used be changed monthly. Develop
       FEC policies and operating procedures to implement this
       recommendation.
11.    Research and fix the problem that enables use of a default password to    Closed.
       access other contractor email accounts.



Leon Snead & Company, P.C.                            29
                                                                                             Attachment 1

12.    Establish procedures that require contractors to create their own unique       Recommendation open.
       login passphrase.
13.    Require all employees and contractors with remote access to FEC’s              Closed.
       networks to comply with the dual-factor authentication requirement for
       their FEC laptop, as federal and FEC policies mandate.
14.    Establish an FEC policy that requires annual recertification of users’         Recommendation open.
       access authorities.
15.    Review FEC current system capabilities in implementing recertification         Recommendation open.
       of user access authorities. Develop and document a detailed project plan
       based on management’s review, and assign sufficient resources to this
       project so that it can be completed on or prior to June 2013.
16.    Revise FEC policies to: require a certification of its systems at least once   Closed. 9
       every three years.
17.    Perform a re-certification of the GSS using NIST SP 800-53 as review           Recommendation open.
       criteria within this calendar year.
18.    Strengthen FEC Policy 58.2.8 so that it provides additional guidance on        Closed. 10
       what decision points drive when a new C&A is required; and specific
       documentation requirements that need to be maintained in order for the
       agency to track changes so it can make informed decisions on when
       major changes drive the need for a re-certification.
19.    Include all components of the general support system, including                Recommendation open.
       workstations, into the organization’s vulnerability/security scanning
       process and ensure that the general support system in its entirety is
       assessed at least annually.
20.    Implement procedures to ensure that scan results are subject to a “root        Recommendation open.
       cause” analysis to ensure that remediation actions address technical as
       well as organizational processes and procedures.
21.    Strengthen controls to ensure that vulnerabilities identified through the      Recommendation open.
       vulnerability scanning tests are remediated within 30 days, or document
       acceptance of these risks.
22.    Implement baseline configuration standards for all workstations.               Recommendation open.
23.    Fully implement USGCB/FDCC standards and perform scanning of                   Recommendation open.
       Internet Explorer configuration settings.
24.    Implement logging of all configuration changes and review logs                 Recommendation open.
       regularly to ensure that all system changes, including changes to
       workstations, are processed through the change management framework.
25.    Review the conditions that caused the employee to retain network access        Closed.
       beyond the FEC’s standard, and strengthen controls as appropriate.
26.    Review the FSA database and remove those personnel shown as current            Closed.
       employees or contractors who have departed the agency.
27.    Review all outstanding audit recommendations contained in the                  Recommendation open.
       agency’s financial statement audit reports, and develop a current,
       detailed, time-phased corrective action plan (CAP) for each audit finding
       and recommendation.

28.    Modify key officials’ annual performance plan 11 and rating elements to        Recommendation open.
       include, as a critical element, the timely completion of corrective action
       plans.

9
   NIST requirements have been modified in this area, and a continuous monitoring requirement has

replaced the three year recertification requirement.

10
   See note 9.

11
   Recommendation modified to address OMB Circular A-50 language.



Leon Snead & Company, P.C.                                30
                                                                                   Attachment 1

29.   Develop a tracking process that would include monthly reports to the    Recommendation open.
      CIO, highlight key tasks that may or have miss(ed) target dates, and
      assign one key OCIO official as responsible for monitoring OCIO
      corrective action plans.
30.   Ensure that sufficient resources are assigned to timely complete the    Recommendation open.
      testing of FEC’s COOP in order to reduce risk to the FEC.
31.   Ensure that appropriate documentation is retained as required by FCD    Recommendation open.
      No. 1 to support that FEC has met all applicable federal testing
      requirements.
32.   Develop a detailed POA&M to ensure that required COOP testing and       Recommendation open.
      exercises are completed as soon as possible.
33.   Establish controls that would automatically suspend an individual’s     Recommendation open.
      network access if security awareness training is not completed within
      required timeframes.




Leon Snead & Company, P.C.                          31
                                                                            Attachment 2




                  THE FEDERAL ELECTION COMMISSION
                  Washington, DC 20463



                                                                     December 10, 2013
MEMORANDUM

TO:           Leon Snead & Company, P.C.

FROM:         Judy Berning
              Acting Chief Financial Officer

SUBJECT:      Management Response to Audit Findings

Please find attached the management response to the audit findings as provided in the
draft document sent by the Office of Inspector General on December 4, 2013.

Please contact me at extension 1217 should there be additional questions.

cc: Lynne McFarland, Inspector General
    Alec Palmer, Staff Director
    Gregory Baker, Deputy General Counsel - Administration
    Lisa Stevenson, Deputy General Counsel - Law




                                                                                    1

                                           32
                                                                                    Attachment 2


                                 Federal Election Commission
                         Fiscal Year 2013 Financial Statement Audit
                          Management Responses to Audit Findings



The Federal Election Commission (FEC) has made significant strides in addressing findings and
recommendations that arise through the annual financial statement audit. In FY 2012, the FEC
fully resolved the significant deficiency related to internal controls over financial reporting and
did not have any material weaknesses or significant deficiencies in FY 2013 over financial
reporting. The FEC continues to address Information Technology (IT) security control needs
identified that relate to Information Technology policies, practices and procedures. The Federal
Election Commission’s responses to the FY 2013 audit findings were provided in the draft
document sent by the Office of the Inspector General on December 4, 2013.

The agency maintains the highest level of commitment to its information technology security and
systems. The FEC recognizes that it is important to have a controls framework that protects
entity data and minimize security threats. The agency continues to evaluate ways to improve the
FEC’s controls framework to mitigate risk and improve overall operational effectiveness. The
FEC has in place directives and a corrective action plan that is reviewed twice a year to mitigate
potential risk factors. The agency’s financial management systems are provided by the National
Finance Center (NFC) and General Services Administration (GSA) under shared service
agreements. The FEC receives and relies upon SSAE 16 audit reports to obtain assurance over
financial applications provided by GSA and NFC.

The Office of the Chief Information Officer (OCIO) understands the agency’s complex IT
security needs and has taken significant steps during FY 2013 to develop and implement a plan
to improve the agency’s IT security posture. For example, the FEC recently acquired a security
tool that will allow the agency’s IT staff to continuously monitor client machines, such as
laptops, for configuration changes and viruses that could negatively impact the FEC’s system
security. This tool will allow the FEC to address several of the audit’s recommendations
concerning workstation security scans and configuration security controls. Another tool acquired
this year will allow the agency to ensure that FEC assets are regularly patched and that
vulnerabilities that cannot be patched are documented.

In addition, we are in collaboration with the Department of Homeland Security (DHS) to acquire
new services that are now becoming available to the FEC. The new service will allow the agency
to better identify and defend against cyber threats. The audit recommends that the FEC perform
an assessment and accreditation of its major applications and general support systems (GSS)
within this calendar year. In July of this year, the CIO signed a Memorandum of Agreement
(MOA) with DHS to perform a comprehensive Risk Vulnerability Assessment, which is actively



                                                33
                                                                                 Attachment 2

going on. This assessment, which is being conducted at no cost to the FEC, will be completed in
December 2013. As part of this assessment, DHS mapped the network to track data flow through
the environment and scanned the FEC’s database, operating system, network and wireless
security. A web application scan was conducted to identify any undetected malware in system
applications. DHS staff undertook penetration testing to see whether and how the agency’s
systems could be breached.

In July 2013, the CIO also signed an MOA with DHS to participate in DHS’s Continuous
Diagnostics and Mitigation (CDM) program, which provides capabilities and tools that enable
network administrators to know the state of their networks at any given time, understand the
relative risks and threats and help system personnel identify and mitigate flaws at near-network
speed. The FEC will become eligible for participation in January 2014. This service will also be
made available at no cost to the agency. Both of these programs will allow the FEC to improve
cyber security and respond to the audit recommendations within the budget and staffing
limitations of the agency.

Although the FEC is exempt from Federal Information Security Management Act (FISMA)
compliance, the agency continues to adopt FISMA requirements for the FEC’s IT security
program where those requirements are feasible and appropriate for the agency. The FEC has
already established numerous policies and procedures to govern and define the agency’s IT
security program, following the guidance published by the National Institute of Standards and
Technology (NIST). The FEC has concurred with a number of the recommendations provided
by the audit, and will continue to implement those recommendations where economically and
technically feasible and where such actions fit within the management framework of the agency.
While the FEC requests budget funds to comply with applicable IT control standards, the FEC
will need Commission approval to adopt a requirement from which Congress has made the
agency exempt. The OCIO has incorporated many industry “best practices” in establishing the
FEC’s IT security and monitoring program. Management’s responses to each individual IT
finding are contained within this report, with an explanation as to why the FEC may not agree
with the finding.




                                              34
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
